<html>
<title> - NOMINATION OF KELVIN J. COCHRAN</title>
<body><pre>[Senate Hearing 111-475]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-475
 
                    NOMINATION OF KELVIN J. COCHRAN 

=======================================================================

                                HEARING

                               before the

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

    NOMINATION OF KELVIN J. COCHRAN TO BE ADMINISTRATOR, U.S. FIRE 
ADMINISTRATION, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                             AUGUST 5, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-120 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
              Jason T. Barnosky, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
          Adam J. Killian, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk



















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Landrieu.............................................     1
    Senator Collins..............................................     3
    Senator Carper...............................................    10
Prepared statements:
    Senator Lieberman............................................    17
    Senator Collins..............................................    18

                                WITNESS
                       Wednesday, August 5, 2009

Kelvin J. Cochran, to be Administrator, U.S. Fire Administration, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security:
    Testimony....................................................     5
    Prepared statement...........................................    20
    Biographical and financial information.......................    24
    Pre-hearing questionnaire....................................    33
    Letter from Office of Government Ethics......................    54
    Letters of support...........................................    55
    Post-hearing questions for the Record........................    59


                    NOMINATION OF KELVIN J. COCHRAN

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Landrieu, Collins, and 
Bennett.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Well, good morning and welcome to this 
hearing on the nomination of Kelvin James Cochran to be 
Administrator of the U.S. Fire Administration (USFA) within the 
Department of Homeland Security (DHS). Senator Landrieu, we are 
honored that you are here. You probably have a pressing 
schedule. If you would like to give your introduction before 
Senator Collins and I proceed with our opening statements, we 
would be glad to have you do that.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Well, thank you, Senator. That would be 
lovely, and I really appreciate it, and I will be very brief. I 
really am honored to introduce an extraordinary leader to you, 
to assume the position, if approved by this Committee and 
confirmed, as Administrator of U.S. Fire Administration.
    Chairman Lieberman and Ranking Member Collins, Chief Kelvin 
Cochran is a native of Shreveport, Louisiana, which is why I am 
extremely proud. But more than that, he has just shown himself, 
after years of service, to be a firefighter's firefighter, 
looking after the lives of his men and women and the 
professionalism of the departments that he has led. He has, as 
I said, 28 years of experience understanding fire safety, 
prevention, and emergency response.
    As you all know, the U.S. Fire Administrator is in charge 
of overseeing, coordinating, and directing national efforts to 
prevent fires and improve fire response. In 28 years, he has 
gained experience in every area of fire service, from 
firefighting to emergency medical services, hazardous 
materials--we have a lot of that in Louisiana--recruiting, 
public education, research development, employee counseling, 
etc.
    He served with distinction as chief of the Shreveport Fire 
Department, assuming responsibility for 600 employees and a $47 
million budget, and then as you know, he moved to Atlanta 
recently to become chief of the Fire Rescue Department there, 
with over 1,000 members and a $74 million budget. And at the 
national level, he served as President of the Metropolitan Fire 
Chiefs Association and First Vice President of the 
International Association of Fire Chiefs.
    So not only does he bring, Mr. Chairman and Ranking Member 
Collins, experience running a fairly major department--
Shreveport is the third largest city in Louisiana--moving to 
quite an international city of Atlanta, so his experience in 
those cities, in large metropolitan areas, but also he brings 
his national experience, connecting to fire professionals 
around the country. He has served this community with 
distinction in many volunteer capacities.
    So I am proud to be with the chief this morning. He is 
going to tell you a story about how he got into this business, 
which I am going to save for him to tell because he tells it 
better than I do. But I am very proud of him, Mr. Chairman, and 
I think this Committee will find his credentials to be 
outstanding and excellent, and he will have my vote in support 
as we move him through the process.
    Chairman Lieberman. Thanks very much, Senator Landrieu. 
That was impressive, and it means a lot to the Committee that 
you took the time to come by. Thank you very much.
    Senator Landrieu. Thank you.
    Chairman Lieberman. As Senator Landrieu indicated, the Fire 
Administration, I would say for the record, which was 
established in 1974, has been the primary Federal agency 
addressing the needs of the Nation's firefighters, with the 
goal of reducing loss of life and economic loss due to fire and 
related emergencies.
    Among its many activities, the agency trains mid- and 
senior-level fire and emergency medical services officers at 
the National Fire Academy, also online; collects, analyzes, and 
disseminates data and information on fire and other emergency 
incidents; researches and develops fire prevention and fire 
safety technology; and helps the FEMA Administrator carry out 
the duties under the Assistance to Firefighters Grant Program 
and the Staffing for Adequate Fire and Emergency Response Grant 
Program, the so-called SAFER program, which mean a lot to this 
Committee and to Members of Congress of all political parties.
    Ever since September 11, 2001, and the catastrophe that was 
Hurricane Katrina, the USFA has also served as a national focal 
point for the expanded role of firefighters in response to both 
terrorist disasters and large natural disasters, including 
those of catastrophic dimensions like Hurricane Katrina.
    The Fire Administration has become a lifeline for 
firefighters, who, like other first responders, run directly 
into the face of danger while everyone else is running away 
from it. So we have always felt, on this Committee, that 
firefighters deserve all the support and training we can give 
them.
    Last year, Congress reauthorized the U.S. Fire 
Administration, and during that process, we had a chance to 
study the agency closely. What we found was a solid 
organization that serves a unique and important role within 
FEMA, DHS, and the Federal Government, and which merits 
continued support.
    I will not go over your background but just include that in 
the record because Senator Landrieu did a good job, and maybe 
she was suggesting what your record says to me, which is that 
yours is a classic Horatio Alger or American Dream success 
story, and they are always inspiring for us to see come before 
the Committee.
    Chief, I think you have an understanding of the needs of 
firefighters, spanning the local and national levels. You have 
given back to your community not just in your professional 
service but also as a volunteer in the Boy Scouts, the 
Salvation Army, and Volunteers of America.
    Your nomination has been endorsed by the International 
Association of Fire Fighters, whose president, our dear friend, 
Harold Schaitberger is here; the International Association of 
Fire Chiefs; and the National Fire Protection Association. I 
would say that you have come before the Committee with the all-
star team of endorsements, and that means a lot to us. So we 
wish you the best of luck.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    As the Chairman has indicated, the agency that Chief 
Cochran has been nominated to lead--the U.S. Fire 
Administration--plays a critical role in securing our Nation. 
Every day across our Nation, firefighters risk their lives and 
their personal well-being in order to protect others. Their job 
as first responders is to be skilled, selfless, and urgent. In 
recent years, we have all become more aware of their acts of 
bravery and sacrifice.
    On September 11, 2001, America's firefighters fearlessly 
responded to aid and rescue victims. On that day alone, 343 
firefighters in New York City lost their lives. In the 
aftermaths of Hurricanes Katrina and Rita, America's 
firefighters tirelessly answered the call.
    And in local communities right now, even as we hold this 
hearing, firefighters are responding to all manner of 
emergencies--some of them life-threatening events that severely 
test the men and women who serve.
    Whether they are career or volunteer, America's nearly 1.2 
million firefighters exemplify professionalism, dedication, and 
heroism.
    Since 1974, the USFA has been the primary Federal agency 
for firefighters. Its mission is to serve as an advocate and to 
help reduce loss of life and diminish the economic impact of 
fires and related emergencies. This Committee has worked hard 
to support the Fire Administration's issues and the needs of 
our Nation's fire services.
    In 2006, as part of the landmark FEMA reform law, we 
elevated the Fire Administrator to the position of Assistant 
Secretary in recognition of the Fire Administration's vital 
role in our Nation's preparedness and emergency response 
system.
    In 2008, we reauthorized the Fire Administration to help 
the fire services better meet their wide-ranging mission. We 
updated the curriculum of the National Fire Academy, expanded 
the range of firefighter training programs, promoted the 
adoption of national voluntary consensus standards for 
firefighter health and safety, and established a fire service 
position at DHS's National Operations Center.
    Still, challenges remain, and among the most pressing is 
the ongoing difficulty that first responders have in 
communicating with one another in real time, on demand, during 
a crisis.
    Senator Lieberman and I have worked hard, and we have made 
some progress in the area of interoperable emergency 
communications, but this is an issue that I will be exploring 
with the chief this morning.
    I am also interested in the chief's perspective on the 
Department's first responder grant programs. The Chairman and I 
have consistently fought for more resources for our Nation's 
fire departments. That includes the FIRE Act grant program, 
which is set to expire at the end of this fiscal year and must 
be reauthorized. This program has enabled thousands of 
departments to respond more effectively to emergencies and 
disasters of all sizes and causes.
    As an original cosponsor of the FIRE Act, I support its 
clear, unwavering mission to support smaller fire departments 
with additional funding. Without that assistance, these 
departments simply could not afford the new life-saving 
equipment, vehicles, or training. I have seen the impact in the 
State of Maine where smaller rural departments, often staffed 
by volunteers, are so dependent on the fire grants in order to 
upgrade their equipment and training.
    I am impressed with Chief Cochran's career. It spans 
several decades from a rank-and-file post in Shreveport, 
Louisiana, to chief in Atlanta. Like the Chairman, I also am 
impressed with the endorsements that he has gathered from the 
International Association of Fire Chiefs, the Metropolitan Fire 
Chiefs Association, and, of course, a group that the Chairman 
and I work very closely with, the International Association of 
Fire Fighters.
    I, too, want to welcome the representatives of these 
organizations who are here to endorse the nominee today.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Chief Cochran has filed responses to a biographical and 
financial questionnaire, answered prehearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be part of the hearing record, with the 
exception of the financial data, which are on file and 
available for public inspection at the Committee offices.
    Chief Cochran, I think you know that our Committee rules 
require that all witnesses at nomination hearings give their 
testimony under oath, so I would ask you to please stand now 
and raise your right hand.
    Sir, do you swear that the testimony you are about to give 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Cochran. I do.
    Chairman Lieberman. Thank you very much. Please be seated. 
We would welcome your statement now and introduction of any 
family or friends that you have with you today.

 TESTIMONY OF KELVIN J. COCHRAN \1\ TO BE ADMINISTRATOR, U.S. 
FIRE ADMINISTRATION, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Cochran. Good morning, Mr. Chairman, Senator Collins, 
and other Members of the Committee. I am Kelvin James Cochran, 
nominee for Administrator of the U.S. Fire Administration. I 
want to begin my remarks by expressing my gratitude to Senator 
Mary Landrieu for her generous introduction. Then I would like 
to, Mr. Chairman, acknowledge and recognize my wife of 27 years 
and my oldest of three children who are here with me. Carolyn 
Cochran is my wife and Tiffane Cochran is my daughter.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cochran appears in the Appendix 
on page 20.
---------------------------------------------------------------------------
    You mentioned that I have endorsements from several 
significant fire service organizations, and you have recognized 
President Harold Schaitberger of the International Association 
of Fire Fighters. I also want to recognize the International 
Association of Fire Chiefs and our President, Larry Grorud, who 
is also with us today, and our Executive Director, Mark Light. 
We also have representatives from the National Fire Protection 
Association with us today, with their support of my nomination.
    It is a tremendous honor that I sit before you today. I 
cannot help but reflect on an experience I had as a 5-year-old 
kid growing up in Shreveport, Louisiana, of a house fire across 
the alley from where I lived, where I saw Shreveport 
firefighters, up close and personal for the first time, who 
made such an impression on me that this was the day that my 
dream was born, that one day I wanted to be a firefighter when 
I grew up. That dream has compelled me from that day to this 
day, and every day for me is like waking up on a holiday 
because I realize I am an American firefighter, and I have 
another opportunity to serve our citizens and Nation in that 
capacity.
    Over my 28-year fire service career, I have had several 
opportunities at the local, State, and national level to serve 
fire service organizations. I have had the honor of leading and 
serving as the chief of the Shreveport Fire Department in 
Louisiana; the chief of the Atlanta Fire and Rescue Department 
in the State of Georgia; and at the national level, I have been 
honored to serve as President of the Metropolitan Fire Chiefs 
Association and the First Vice President of the International 
Association of Fire Chiefs. And for the past 2 years, I have 
been privileged to serve as a board member for the U.S. Fire 
Administration's Board of Visitors for the National Fire 
Academy in Emmitsburg, Maryland. Additionally, I have been 
active in fire service professional associations, working 
collaboratively on committees and task forces on issues that 
positively impact the fire service industry. These experiences 
have provided me with a broad knowledge base and familiarity 
with local, State, and national-level fire service issues to 
serve and benefit the fire service community.
    If confirmed, I will have the distinct honor of serving the 
American people and the American fire service as U.S. Fire 
Administrator. I believe my background and experience will 
bring administrative and operational experience and expertise 
to the U.S. Fire Administration in the furtherance of its 
mission and will enhance the fire service role in the National 
Response Framework.
    Since its inception, the U.S. Fire Administration has 
played a significant role in ensuring domestic tranquility 
through its fire prevention, fire protection, and fire safety 
education programs in enhancing America's response capabilities 
and efficiency. The post-September 11, 2001, and post-Hurricane 
Katrina U.S. Fire Administration has a revised role and 
responsibility in preparedness and response.
    The principal mission of the U.S. Fire Administration is to 
provide support to America's fire departments and fire service 
organizations to prevent fires, to eliminate or minimize losses 
of civilian and firefighter lives, to minimize injuries to 
civilians and firefighters who are protecting our Nation, and, 
additionally, to bolster fire service preparedness and response 
for natural and manmade disasters. The mission of the U.S. Fire 
Administration also includes providing for the professional 
development of America's fire service leaders. If confirmed as 
U.S. Fire Administrator, I will work to engage Federal 
partners, fire service stakeholders, and other organizations 
whose missions are complementary to the U.S. Fire 
Administration. And I will work to improve all programs and 
services that will enhance the fire service role to prepare 
for, respond to, and mitigate incidents which have the 
potential of causing harm to life, property, and the 
environment in the United States of America.
    And my final remark, Mr. Chairman, is that the U.S. Fire 
Administration's most notable strength is its strong ties with 
and support from local fire departments, fire service 
associations, and State fire service training institutions. 
Additionally, the U.S. Fire Administration has a history of 
collaboration with all fire service stakeholders in planning 
and decisionmaking, which directly impacts fire service 
programs and operations across our great Nation.
    These strengths have positioned the U.S. Fire 
Administration to maximize its resources to meet the needs of 
all of its stakeholders and fire departments that it serves. If 
confirmed as U.S. Fire Administrator, I will continue to build 
upon these strengths to shape the future of the U.S. Fire 
Administration and the fire service of the United States of 
America.
    I thank the Committee for considering my nomination as U.S. 
Fire Administrator. I thank you, Mr. Chairman, for the 
opportunity to appear before you today. And I look forward to 
answering any questions that you might have.
    Chairman Lieberman. Thank you very much, Chief, for that 
very thoughtful opening statement. I am going to start with the 
standard three questions that we ask of all nominees before us.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Cochran. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the duties of the office to 
which you have been nominated?
    Mr. Cochran. No.
    Chairman Lieberman. And, third, do you agree without 
reservation that you will respond to any reasonable summons to 
appear and testify before any duly constituted committee of 
Congress if you are confirmed?
    Mr. Cochran. I agree without reservation.
    Chairman Lieberman. I thank you very much, and we will go 
to a first round of questions of 7 minutes per Senator. Let me 
focus in on a few things that we have talked about so far.
    We expect to consider legislation reauthorizing the 
Assistance to Firefighter Grants, which help fund firefighting 
equipment, training, and vehicles, as you know. These grants 
are very important to fire departments around the country, 
which are working for levels of government that particularly 
now are very hard pressed for revenue and, of course, have 
significant personnel-related costs so the purchase of 
necessary equipment is often put to the bottom.
    What steps, if any, would you like us to consider to 
improve the fire grant program as we reauthorize it?
    Mr. Cochran. The Assistance to Firefighters Grants and the 
SAFER grants have benefited the fire service of our Nation 
tremendously. To have a meaningful approach to improvements, 
Mr. Chairman, I would engage the Grant Programs Directorate 
along with other fire service stakeholders and beneficiaries of 
our Federal grants to fire departments to evaluate our Federal 
grants as a whole to determine if improvements are necessary.
    The grants that we primarily speak of, Assistance to 
Firefighters and SAFER, have benefited our three different 
types of fire departments that we commonly refer to as 
volunteer, combination, and career departments, and there are 
tremendous needs that still exist. We want to ensure that the 
viability and credibility of these programs are actually doing 
what they are designed to do and that we strengthen their 
credibility by making sure that they have an impact on 
America's fire service.
    So a process of collaboration between fire service 
stakeholders with the support of the Grant Programs Directorate 
would allow us to identify areas of improvement, and if 
confirmed as U.S. Fire Administrator, I will aggressively 
pursue those recommendations to enhance these programs.
    Chairman Lieberman. Good. Well, we will look forward to 
your input as we go forward with the reauthorization, and I 
appreciate the intention to do this as a collaborative process.
    Let me go to the National Response Framework, which you 
mentioned briefly in your opening statement. This framework 
sets out the Nation's overall approach to responding to 
disasters. It includes a firefighting annex, referred to as 
Emergency Support Function 4 (ESF-4). It is intended to 
coordinate Federal firefighting support in the event of a major 
incident. Interestingly, because of the role the U.S. Forest 
Service plays in addressing wildfires, it is the coordinating 
agency for ESF-4. But, of course, the U.S. Fire Administration 
is included also, in this case as a supporting agency for ESF-
4.
    I wanted to ask you what you see as USFA's role in carrying 
out the National Response Framework, both under this 
firefighting section or annex, ESF-4, and also more generally.
    Mr. Cochran. The U.S. Fire Administration should be an 
extremely potent partner with the U.S. Forest Service in ESF-4. 
Clearly, the frequency and volume of wildland fires and the 
resources provided through the U.S. Forest Service place them 
in a position where they are the primary Federal agency in ESF-
4.
    But due to the target capabilities that rely on the fire 
service discipline, in other areas outside of wildland fires, 
the U.S. Fire Administration should be a recognized partner in 
ESF-4 because it will rely on fire service resources outside of 
wildland fires to manage certain types of disasters.
    I would propose that if there is not a current relationship 
between the U.S. Forest Service and the U.S. Fire 
Administration that allows them to work side by side, shoulder 
to shoulder, to bring the greatest level of effectiveness to 
ESF-4, it should be assertively pursued by the U.S. Fire 
Administrator, and, if confirmed, I will lead that initiative.
    Additionally, the U.S. Fire Administration should be the 
most relied on Federal entity for the Department of Homeland 
Security and FEMA to ensure that the American fire service will 
be equipped and prepared to be a Federal asset in times that 
Federally, nationally declared disasters occur.
    The U.S. Fire Administrator should be the spokesperson to 
the American fire service for the Department of Homeland 
Security on homeland security issues and on preparedness and 
response issues. Likewise, the U.S. Fire Administration should 
be a credible spokesperson for the American fire service on 
meeting their needs where gaps exist that hinder us from being 
a Federal resource in times of natural disasters.
    Chairman Lieberman. Well, that was a good answer. I must 
tell you, as I went over this material in preparation for this 
hearing, it surprised me to recall that the Forest Service is 
the coordinating agency for ESF-4. I have a great respect, as 
we all do, for the Forest Service, but it seems to be a more 
natural role for the Fire Administrator. I thought you handled 
that very well. You are not only a great firefighter, you are a 
great diplomat. But you got your point across, and I urge you, 
as you get into this position, if you are confirmed, do not 
hesitate to get into this. And if you think that really there 
ought to be either a co-leadership or the U.S. Fire 
Administrator ought to be No. 1 here, do not hesitate to make 
that case to our Committee or, obviously, within the 
Administration.
    Mr. Cochran. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you. My time is up. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Chief Cochran, I was alarmed to learn that America's fire 
death rate is one of the highest in the world on a per capita 
basis, and the statistics are truly startling. In 2007, more 
than 3,400 civilians lost their lives as a result of fire. 
Another 18,000 were injured. The same year saw the loss of more 
than $14 billion in direct property losses as a result of 
fires. And firefighters are paying a high price as well: 114 
firefighters lost their lives in the line of duty last year; 60 
have already died this year as well.
    We have seen an improvement in fire losses during the last 
20 years, but these numbers are still higher than they should 
be and are really unacceptable. What role can the U.S. Fire 
Administration play in reducing the number of firefighter 
deaths and civilian casualties?
    Mr. Cochran. I share your perspective that even though 
there has been tremendous enhancements, the current numbers in 
both civilian deaths and injuries, firefighter deaths and 
injuries, and property loss are still unacceptable. The U.S. 
Fire Administration has a track record, and a steady track 
record, of reducing property loss and injuries and deaths to 
civilians.
    We have to take a more assertive role in outreach of our 
programs in venues that really affect the greatest areas where 
those losses are occurring. Through our National Fire Data 
Center and other resources, we should specifically identify 
those most common areas where the greatest fire losses are 
occurring as it relates to property, identify those common 
areas where the greatest losses of lives and injuries are 
occurring, and develop or revise our fire prevention and fire 
safety education programs to aggressively address those areas.
    Many of those areas, Senator Collins, are in regions of the 
Nation that do not have the resources to address those problems 
with their own resources. The U.S. Fire Administration, along 
with other Federal agencies and nongovernmental agencies, 
should work collaboratively together to pool their resources to 
address areas where most of those fire losses are occurring.
    Where firefighters are concerned, we have no notable change 
in the number of firefighters dying in the line of duty and the 
number of injuries that are occurring to firefighters in the 
line of duty. My proposal, if confirmed as U.S. Fire 
Administrator, would be to engage all Federal agencies and 
nongovernmental entities that have some resources or role in 
safety and occupational health to develop a vulnerability 
assessment model whereby local fire departments or communities 
can determine at their own level where the most likely 
vulnerabilities exist that could lead to firefighter line-of-
duty deaths and injuries and, having determined those areas of 
vulnerability, develop strategic plans to minimize them.
    Senator Collins. Thank you, and please know that this 
Committee looks forward to working very closely with you to 
improve those statistics because we are talking literally about 
lives. And as you point out, the firefighters themselves are 
paying such a high price. So we look forward to working with 
you in that area.
    I want to follow up on my comments about interoperable 
emergency communications. After the attacks on our country in 
2001, this Committee became more aware of the problem of first 
responders not being able to communicate with one another and 
the fact that it exacerbated the loss of life on September 11, 
2001.
    Therefore, it was particularly disappointing when Hurricane 
Katrina struck 4 years later, in 2005, that we heard exactly 
the same problem happened in New Orleans, in particular, but 
throughout the affected region, and that once again 
firefighters could not talk to police officers who could not 
communicate with emergency medical personnel.
    Since that time, we have continued to pour literally 
billions of dollars into interoperable communications grants. 
The Chairman and I have worked hard to push the Department to 
make this a priority. But we are still not there.
    So it seems to me that this is a problem that is not just 
about money. That certainly is part of the problem because it 
is expensive, but there is more going on.
    What do you see as the biggest barriers, the biggest 
challenges to achieving interoperable communications? And what 
can we do to push that goal forward?
    Mr. Cochran. There are three layers, I believe, that create 
barriers. The top two layers I am not as familiar with as I 
will be, if confirmed as U.S. Fire Administrator, and that is, 
to what extent have Federal-level agencies and nongovernmental 
agencies at the national level--stakeholders in public safety, 
communications, and interoperability--unified their efforts 
toward achieving the goal of interoperability for public 
safety? And what efforts collectively have Federal-level and 
national-level stakeholders engaged in pushing forward on 
achieving broadband spectrum for public safety to address the 
interoperability issue?
    Of course, those are rhetorical questions, but as U.S. Fire 
Administrator, if confirmed, I believe my role would be to 
pursue the answers to those questions; and if there are not 
credible, combined efforts, to lead the initiatives to bring 
those parties together to do so.
    Additionally, there are Federal funds that are specifically 
directed toward the interoperability issue. I believe that it 
is time for us as a Nation to determine if those Federal 
dollars are actually used toward a specific strategic plan that 
will ultimately reach that goal. And I am not sure at this 
point whether or not we can say as a Nation, as elected Federal 
officials, as the administrator of the U.S. Fire Administration 
and our fire service partners, if we have a strategic plan 
where the Federal dollars directed toward interoperable 
communications are actually leading toward that end.
    Then, finally, at the local level, there are policies and 
procedures and operational issues that bring the 
interoperability issue to the table, and as U.S. Fire 
Administrator, I believe I would have a role, if confirmed, in 
making sure that the fire service is doing its part to make 
sure that happens and that we are partnering with emergency 
managers and law enforcement agencies to make sure that happens 
on the operations end.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Carper, good morning. Thanks for being here.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good morning, Mr. Chairman. Senator 
Collins, nice to have been with you last night.
    Senator Collins. Yes.
    Senator Carper. Looking out at the audience, I see two 
young women sitting here behind you. Do you have two daughters? 
[Laughter.]
    Mr. Cochran. I have two, but only one is here. The other 
one is my wife.
    Senator Carper. I am sorry. My eyesight is pretty good, and 
she is not that far away. Nice of you to share your husband 
with us. And what is your daughter's name, the one who is here?
    Mr. Cochran. My daughter is Tiffane Cochran.
    Senator Carper. Tiffane, thanks for sharing the old man 
with the people of this country.
    I enjoyed meeting with you in my office a week or two ago. 
Thank you for coming by and for bringing your family with you. 
Sometimes when people have been nominated for positions like 
this, I say to them at a hearing of this nature when their 
family is not with them, ``Does your spouse know you are doing 
this? Does she know you have been nominated for this 
position?'' Obviously, she knows, and by her presence here 
today, I guess she has given her approval. And I suspect that 
we will, too.
    There were a number of things that I liked about your 
background. First of all, I was just impressed with your 
demeanor and your ability to communicate. I like the depth of 
your service, not only in Shreveport but in Atlanta, and I 
think it prepares you well, and I like your participation in 
international and national organizations, which I think has 
given you a good base for undertaking this responsibility, 
should you be confirmed.
    Let me ask a couple of questions. First of all, why do you 
want to do this, or why are you willing to do this? It is going 
to disrupt your life. It is going to give you probably more 
work than you maybe want to do. But it will be a lot of work, 
and it will not be easy.
    Mr. Cochran. Well, first of all, Senator, I think the short 
answer is that I just believe I can make a difference. That 
question is often asked in promotional opportunities throughout 
my career, and my answer has been consistently the same. I 
believe I can make a difference.
    During all of my 28-year career, I have had this passion 
for serving through the fire service citizens on a local, 
State, and Federal level, and it led me to pursuing leadership 
opportunities to become the chief of the Shreveport Fire 
Department, later the chief of the City of Atlanta Fire Rescue 
Department, pursuing board member elected positions in the 
Metropolitan Fire Chiefs and the International Association of 
Fire Chiefs, and participation on other committees and task 
forces. It is just something that is extremely rewarding to 
serve our Nation as a firefighter and as a fire chief.
    I believe collectively over the years I have garnered 
enough experience and training and education where, if 
confirmed as U.S. Fire Administrator, I will continue a track 
record of service to citizens and country and garner support 
from Federal and nongovernmental stakeholders in the fire 
service to improve what we do for our Nation.
    Senator Carper. Sometimes we meet people in our lives who 
have what I describe as the ``heart of a servant,'' and just a 
need to serve, a desire to serve. I think you have that heart 
of a servant, and where does that come from?
    Mr. Cochran. Well, the major part of that comes from my 
faith. I just believe that is why I was born, to serve, and one 
of the strange consequences of a relentless desire to serve is 
being promoted to higher levels to be able to serve at a 
greater capacity and to be able to serve more people. I think 
that the more lowly you are in servanthood, the greater the 
opportunities that will come your way.
    Senator Carper. I think you are absolutely right.
    You mentioned, as you had opportunities for new 
responsibilities, that you have been asked why do you want to 
do this, and you said, ``I want to make a difference with my 
life.'' How do you think you might, and what are some of the 
ways you might make a difference in this role?
    Mr. Cochran. I believe that the issues that Senator Collins 
addressed with regard to reducing loss of property, reducing 
the loss of civilians' and firefighters' lives and injuries to 
civilians and firefighters is the greatest way that I could 
really make a difference.
    I also believe that there are new initiatives in fire 
prevention and fire safety education that should be initiated 
to minimize further loss of lives in multi-family complexes and 
senior citizens' complexes and that fire home sprinklers are 
one of the greatest public safety and fire safety initiatives--
fire prevention initiatives are the future--in which I would, 
if confirmed, want to see the U.S. Fire Administration play a 
greater role.
    In just 5 to 10 years, I would hope to have made a 
difference so that, as a Nation, we can see a marked decrease 
in the number of line-of-duty deaths and injuries to 
firefighters after having served as U.S. Fire Administrator.
    Senator Carper. As you and I discussed, Delaware has not a 
lot of paid firefighters. We have a number in Wilmington; they 
are good, too. But we have a lot of volunteer firefighters, and 
I suspect the same is true in Maine, and I believe in 
Connecticut, but particularly true in Delaware.
    We talked a bit about the challenge in recruiting and 
retaining volunteer firefighters. It is tough to get people to 
volunteer for a number of service opportunities these days. 
Fortunately, many do.
    But what is your experience and understanding of volunteer 
firefighting issues? And how might you be working with that 
community if you are confirmed?
    And, second, can you describe some of the common challenges 
between volunteer and career firefighters that you think can be 
overcome?
    Mr. Cochran. Yes, sir. In the city of Shreveport, 
Louisiana, was the largest fire department in northwest 
Louisiana. And even though we were the big boys, so to speak, 
there were risks in our community that, if they were to occur, 
we would not have enough resources to meet the needs for the 
citizens of Shreveport, and it made it necessary for us to 
build relationships with local volunteers.
    Subsequently, there were issues that could occur in 
volunteer communities that they did not have the resources to 
meet on their own, and they would rely on the Shreveport Fire 
Department to help them meet their needs.
    So I have a tremendous respect for a joint partnership 
where both volunteer and career departments are structured and 
have relationships to support each other.
    In addition to that, I have a tremendous respect for the 
fact that in our Nation, if there is going to be fire 
protection in a community, it has to be provided completely 
through volunteers--men and women who have decided that they 
are going to organize themselves in such a way that, should 
fires occur, they will provide the support necessary to 
extinguish fires or rescue entrapped victims. That is a 
tremendous commitment from working people when there is no 
funded fire protection available.
    The U.S. Fire Administration should play an ongoing role, 
as it has in the past, to make sure that we are a support to 
any community that relies solely on volunteers to have its 
resource needs met or available when fires do occur.
    And, finally, in my role as board member for the 
International Association of Fire Chiefs (IAFC), we have a 
section known as the Combination and Volunteers Section of the 
International Association of Fire Chiefs. We also have a 
relationship with the National Volunteer Fire Council. Since I 
have a history of working with career departments, I will not 
try to attempt to think that I am keenly aware and sensitive to 
all volunteer issues, but will rely on the Volunteer and 
Combination Section of the IAFC and the National Volunteer Fire 
Council for the U.S. Fire Administration to be intimately 
involved with them, to see to it that we are using our 
resources to help them meet their needs long term.
    Senator Carper. All right. Thanks for that response. My 
time has expired.
    Mr. Chairman, thanks very much for holding this hearing, 
and it is nice to see you again, Chief, and to meet your 
family.
    Mr. Cochran. Nice to see you, sir.
    Chairman Lieberman. Thanks, Senator Carper.
    Chief, I think we will give each of the Members of the 
Committee a chance to ask one more question. Mine is on the 
Fire Academy, which provides very valuable training to 
firefighters and has done so over the years, both at its 
residential facility in Emmitsburg, Maryland, and also by 
distance learning in cooperation with fire service 
organizations and, in fact, universities.
    In 2008, the Fire Academy, as an example, provided more 
than 4,000 courses and reached more than 121,000 students, 
which is an impressive figure. I know you have benefited from 
the academy's training and spoken of its importance to your 
career development. I wonder, as you are coming in as Fire 
Administrator, what do you see as the academy's major 
challenges and its major opportunities?
    Mr. Cochran. Thank you, Mr. Chairman. I believe that the 
challenge that we face with the National Fire Academy is to 
continue our pattern of growth in meeting the training and 
educational needs of the American fire service. To do that, we 
have to have a sustained program of periodic review of courses 
that are still making a difference to enhance their viability 
in today's fire service and in the future; but also we have to 
continue to scan the fire service environment for other 
training needs that local- and State-level fire training 
institutions are strapped to actually meet.
    The National Fire Academy touches many fire service careers 
on an annual basis. Last year, over 8,000 participants came to 
the Emmitsburg campus, and through our other outreach programs 
through Internet and other means, State training and local 
institutions, well over 115,000 firefighters were touched--
volunteer, combination, and career departments alike. So we 
have to continue to strive for excellence in that regard.
    In the future, one of the greatest challenges is going to 
be how do we assist the American fire service in overcoming the 
tremendous level of attrition and loss of formal knowledge and 
institutional knowledge. I think the National Fire Academy is 
one of the greatest solutions to that future challenge, and 
there is no substitute for the on-campus experience in training 
fire officers and chief officers for the future. But our 
current capacity is not suitable to meet the current demand, so 
we have to look for future ways of expanding capacity on the 
Emmitsburg campus to bring young fire officers and chief 
officers to Emmitsburg so that the expectation of quality 
leadership that Americans have come to expect in their local-
level fire departments can still be met through the programs at 
the Emmitsburg campus.
    Chairman Lieberman. Excellent. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Let me associate myself with the comments that the Chairman 
just made about the importance of the Fire Academy. I have had 
many professional firefighters from Maine go to take advantage 
of the course work, but the demand is greater than can be 
accommodated, and yet that training is so specialized that it 
is not available in very many other places. So I look forward 
to working with you on that.
    I also want to associate myself with the comments made by 
Senator Carper about the volunteer fire services. In Maine, we 
are fortunate to have absolutely top-notch professional 
firefighters, and we are also fortunate to have very hard-
working volunteers who staff more than 96 percent of Maine's 
fire departments; 96 percent are comprised of either volunteer 
or mostly volunteer firefighters. So paying attention to both 
the professional departments and the volunteer and the 
combination departments is critical, as Senator Carper 
indicated.
    I also want to encourage you to keep the Fire Grant program 
with little bureaucracy. One of the reasons it is so popular 
now is that it has a peer review system that works extremely 
well to ensure that the money does not get siphoned off by 
bureaucracy but really goes directly to fire departments. And I 
think it is very successful.
    My final question has to do with public awareness 
campaigns. The data that I used in my first question to you are 
startling in terms of how much we have to do to improve public 
awareness and education and improve safety. And one of the Fire 
Administration's primary responsibilities is public awareness 
and education.
    All of us are concerned when we learn of a household where 
lives were lost in a fire because they did not have smoke 
alarms, just something as basic as that. There is so much more 
that could be done to educate families on how to evacuate their 
home when there is a fire.
    What can the Fire Administration do to improve its 
education and awareness campaigns to decrease the loss of life 
and property?
    Mr. Cochran. That is a great question, Senator, but I have 
to ask: Was that a fire alarm that we just heard? [Laughter.]
    Senator Collins. It was, fortunately, not a fire alarm. 
Those were bells telling us that we are in the midst of a 
quorum call, so you can relax, and you do not have to evacuate 
us.
    Mr. Cochran. I can relax.
    Senator Collins. But we would look to you if, in fact, we 
had to evacuate.
    Mr. Cochran. I am prepared to lead us if that is the case.
    The role that the U.S. Fire Administration has in fire 
safety education and fire prevention, as I mentioned earlier, 
has had good results, but there is still work to be done in 
outreach for prevention efforts. The greatest categories of 
fire deaths are still children 5 years and younger and senior 
citizens above 50. And it is pretty clear where demographically 
those deaths occur. They are in low-to moderate-income 
communities, minority communities, and certain types of 
dwellings. Rather than continue a broad-brush approach to fire 
safety education, we should have a more targeted, focused 
approach on the areas where the risks are greatest.
    I believe we have programs that actually focus in those 
areas currently, but in my current assessment, I am not aware 
of how assertive and how specifically targeted they are. If 
confirmed as U.S. Fire Administrator, I believe it would be 
prudent for me to bring together all of our partners in fire 
prevention and fire safety education within the U.S. Fire 
Administration and other Federal agencies to make sure that our 
programs are targeted programs in the areas where the greatest 
needs are.
    Again, some communities and municipalities do not have the 
personnel or other resources to effect fire safety education 
programs to address those needs.
    There should be, in my estimation, noncompetitive grants 
and other programs available to address those needs in 
communities that cannot afford to meet them.
    Senator Collins. Thank you, Mr. Chairman. Thank you, Chief.
    Chairman Lieberman. Thanks, Senator Collins.
    Chief, I think your testimony and appearance today have 
been very impressive. You obviously, from your biography, have 
a lot of experience that is relevant to the position to which 
you have been nominated, but I have been impressed by the way 
you have handled the questions. You are very well informed. You 
have some ideas based on your experience that you are taking in 
some sense of priority. So I thank you very much for your 
testimony. You have given me, certainly, confidence about your 
capacity to handle this position.
    We are going to close the hearing record at the close of 
business today. In other words, any additional statements or 
questions by yourself or questions from us, are due at the 
close of day because, if possible, with Senator Collins' 
agreement--I do not know whether it is going to be possible--I 
would like to try to get you confirmed before we formally go on 
recess for a month, which presumably will be on Friday. But 
thanks for your career; thanks for your willingness to serve.
    Senator Collins, would you like to add anything?
    Senator Collins. I just concur in your assessment of the 
nominee, and I also pledge to try to move Chief Cochran's 
nomination through the full Senate prior to our adjourning for 
the recess.
    Chairman Lieberman. Thank you.
    Chief, would you like to quit while you are ahead or say 
anything in your defense? [Laughter.]
    Mr. Cochran. Absolutely. Thank you, Senator Lieberman; 
thank you, Senator Collins.
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you. The hearing is adjourned.
    [Whereupon, at 11:01 a.m., the Committee was adjourned.]

















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
